al
19-161-cv
Weisshaus v. Port Authority
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
BY
FEDERAL
RULE
OF
GOVERNED
APPELLATE PROCEDURE 32.1 AND THIS
COURT'S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC
DATABASE
(WITH
THE
NOTATION "SUMMARY ORDER"). A PARTY
CITING A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 28th day of May, two
thousand twenty.
PRESENT:

BARRINGTON D. PARKER,
DENNY CHIN,
SUSAN L. CARNEY,
Circuit Judges.

a2
■x

YOEL WEISSHAUS,
Plaintiff-Appellant,
-vPORT AUTHORITY OF NEW YORK & NEW
JERSEY,
Defendant-Appellee,
NEW YORK STATE, NEW YORK STATE
ASSEMBLY, NEW YORK STATE SENATE,
STATE OF NEW JERSEY, NEW JERSEY STATE
LEGISLATOR, NEW JERSEY STATE GENERAL
ASSEMBLY, NEW JERSEY STATE SENATE,
JOHN DOES 1 THROUGH 20, JANE DOES 1
THROUGH 20,
Defendants.
■x

19-161-cv
FOR PLAINTIFF- YOEL WEISSHAUS, pro se,
APPELLANT:
New Milford, New Jersey.
FOR DEFENDANT- KATHLEEN G. MILLER,
APPELLEE:
The Port Authority of New
York and New Jersey, New
York, New York.
Appeal from the United States District Court for
the Southern District of New York (Eaton, J.).
i ■

1 Judge Richard K. Eaton, of the United States Court
of International Trade, sitting by designation.

a3
UPON DUE CONSIDERATION, IT IS
HEREBY
ORDERED,
ADJUDGED,
AND
DECREED that the judgment of the district court is
AFFIRMED in part and VACATED in part, and the
action is REMANDED for further proceedings
consistent with this order.
Plaintiff-appellant Yoel Weisshaus, proceeding
pro se, sued defendant-appellee Port Authority of New
York and New Jersey (the "Port Authority"), claiming,
inter alia, that toll increases for the Port Authority's
river crossings violated his right to travel. His
complaint was sua sponte dismissed in 2011. On
appeal, we affirmed the dismissal of all claims, except
we remanded for the district court to consider
whether Weisshaus had adequately pleaded a dormant
Commerce Clause claim. See Weisshaus v. Port Auth.
ofN.Y. & N.J., 497 F. App'x 102,104-05 (2d Cir. 2012).
We noted that the district court could, in its discretion,
stay the case pending resolution of a similar case
brought against the Port Authority by AAA Northeast
and other AAA entities (collectively, "AAA"). Id. at
105.
On remand, in an amended complaint, Weisshaus
asserted three claims under the dormant Commerce
Clause based on: (1) the setting of tolls to fund
projects unconnected to the Port Authority's
"interdependent transportation system" ("ITN"); the
discount given to E-ZPass users as compared to those
who pay tolls in cash; and the setting of tolls to fund
future projects. He also asserted other claims not
based on the dormant Commerce Clause. The Port

"1

a4
Authority moved to dismiss the new complaint for
failure to state a claim, or to stay the case pending
decision in the AAA case. The Port Authority provided
exhibits from the AAA case in support. The district
court stayed Weisshaus's case until summary
judgment was granted for the Port Authority in the
AAA case. D. Ct. Dkt. No. 56; see also AAA Ne. v.
Port Auth. of N.Y. & N.J. ("AAA"), 221 F. Supp. 3d
374, 396 (S.D.N.Y. 2016). After the stay was lifted,
Weisshaus moved to file a second amended complaint.
The district court denied that motion. It considered
converting the Port Authority's motion to dismiss to a
motion for summary judgment, but did not do so; in
the end, it granted the Port Authority's motion to
dismiss, relying in part on factual findings the court
had made in AAA.
This appeal ^ followed. We assume the parties'
familiarity with the underlying facts, the procedural
history, and the issues on appeal.
I.

Standards of Review

We review de novo a district court's dismissal for
failure to state a claim. Smith v. Hogan, 794 F.3d 249,
253 (2d Cir. 2015). While we ordinarily "review denial
of leave to amend under an abuse of discretion
standard, when the denial of leave to amend is based
on a legal interpretation, such as a determination that
amendment would be futile, a reviewing court
conducts a de novo review." Id. (internal quotation
marks and alterations omitted) (italics added).

a5

II.

Non-ITN Projects Claim

In deciding a motion to dismiss for failure to state
a claim, this Court (and the district court) should not
consider matters outside the pleadings. See Nakahata
v. N.Y.-Presbyterian Healthcare Sys., Inc., 723 F.3d
192, 202 (2d Cir. 2013). Courts must limit their
consideration to: (1) "the factual allegations in the . . .
complaint, which are accepted as true"; (2) "documents
attached to the complaint as an exhibit or incorporated
in it by reference"; (3) "matters of which judicial notice
may be taken"; or "documents either in plaintiff's]
possession or of which plaintiff] had knowledge and
relied on in bringing suit." Roth v. CitiMortgage Inc.,
756 F.3d 178, 180 (2d Cir. 2014) (internal quotation
and alterations marks omitted).
As for judicial notice, Federal Rule of Evidence
201(b) provides that courts may take judicial notice
only of facts outside the trial record that are "not
subject to reasonable dispute." Fed. R. Evid. 201(b).
"Such facts must either be (1) generally known within
the territorial jurisdiction of the trial court or (2)
capable of accurate and ready determination by resort
to sources whose accuracy cannot reasonably be
questioned." Int'l Star Class Yacht Racing Ass'n v.
Tommy Hilfiger U.S.A., Inc., 146 F.3d 66, 70 (2d Cir.
1998) (internal quotation marks omitted). "A court
may take judicial notice of a document filed in another
court not for the truth of the matters asserted in the
other litigation, but rather to establish the fact of such
litigation and related filings." Id. (internal quotation
marks omitted). "Facts adjudicated in a prior case do

a6

not meet either test of indisputability contained in
Rule 201(b): they are not usually common knowledge,
nor are they derived from an unimpeachable source."
M; see also Liberty Mut. Ins. Co. v. Rotches Pork
Packers, Inc., 969 F.2d 1384, 1388-89 (2d Cir. 1992)
(noting that the district court overstepped the bounds
of judicial note when it relied on a finding of fact from
a bankruptcy court order).
"[WJhere matter outside the pleadings is offered
and not excluded by the trial court, the motion to
dismiss should be converted to a motion for summary
judgment." Nakahata, 723 F.3d at 202-03; see also
Fed. R. Civ. P. 12(d) ("If, on a motion under Rule
12(b)(6) or 12(c), matters outside the pleadings are
presented to and not excluded by the court, the motion
must be treated as one for summary judgment under
Rule 56. All parties must be given a reasonable
opportunity to present all the material that is
pertinent to the motion."). However, "reversal for lack
of conversion is not required unless there is reason to
believe that the extrinsic evidence actually affected
the district court's decision and thus was not at least
implicitly excluded." Amaker v. Weiner, 179 F.3d 48,
51 (2d Cir. 1999):
We conclude that the district court erred in
dismissing the non-ITN projects claim. The Port
Authority submitted with its motion evidence
produced in AAA. The Port Authority relied on this
evidence for the proposition that its ITN system was
unprofitable. The district court did not convert the
motion to one for summary judgment, but nonetheless

a7
cited to factual findings in the AAA decision. In doing
so, the district court apparently believed it could take
judicial notice of the factfinding in AAA. For instance,
in examining whether revenues were diverted to nonITN projects, the court described the findings in AAA
and then concluded:
Faced by the full weight of these facts,
Weisshaus has not shown that his
allegations of fact could lead the court to
reasonably find the Port Authority liable
on facts that have already been determined
to foreclose liability. Thus, plaintiffs claim
that portions of the 2011 Toll Increase are
being diverted to projects not functionally
related to the ITN fails to state a claim
under the dormant Commerce Clause.
Because the court previously decided that
there were no toll revenues that could have
been diverted to projects outside of the
ITN, plaintiffs claim that the 2011 Toll
Increase is being used to fund non-ITN
projects . . . necessarily fails to allege facts
sufficient to satisfy the pleading standard.
S. App'x at 29.
The findings in AAA, however, were not subject
to judicial notice, and Weisshaus disputed or
attempted to distinguish a number of facts drawn
from those cases that were material to the decision to
dismiss the non-ITN projects claim in this case.
Because that use of facts from AAA was error, the
matter is remanded for the district court to convert

a8
the motion to one for summary judgment, in whole or
in part, and to permit Weisshaus an opportunity to
submit evidence in opposition to the motion. Of course,
the district court is free, upon such conversion, to
consider the evidentiary materials submitted by the
Port Authority. We express no opinion as to the merits
of Weisshaus's claim.
III.

Points That Are Affirmed

Despite the error discussed above, there are
aspects of the district court's decision that we affirm.
A. Other Dormant Commerce Clause
Claims
Weisshaus argues that the Port Authority's cash
toll surcharge violates the dormant Commerce Clause
because it "penalize[es] drivers for not having EZPass." Appellant's Br. at 49. He contends that the
district court erred when it considered the benefits
that E-ZPass confers on all drivers — that is, better
traffic flow - because the court "stepped outside the
four corners of the complaint[]" to make such a
finding. Appellant's Br. at 51. We disagree. Weisshaus
attached a Port Authority press release to his
amended complaint, which explained the Port
Authority's reason for discounting the toll price for EZPass users: to decrease traffic congestion. In nearly
a decade of litigation, Weisshaus has never contended
that this benefit was inauthentic, nor does he do so on
appeal. Accordingly, the district court appropriately
relied on the documents incorporated into Weisshaus's
amended complaint, and it did not err when it

a9
dismissed his cash toll surcharge claim.
Similarly, we affirm the district court's dismissal
of Weisshaus's future projects claim, also raised under
the dormant Commerce Clause. There, he argues that
the Port Authority cannot raise toll prices "to
fundraise revenues for future facilities, years in
advance" because it may never deliver a benefit to
those paying the increased rate. Appellant's Br. at 54.
When determining whether a fee charged by a
government entity violates the Commerce Clause, we
consider whether the fee "confer[s] an actual or
potential benefit" on those who pay. See Bridgeport &
Port Jefferson Steamboat Co. v. Bridgeport Port
Auth., 567 F.3d 79, 87 (2d Cir. 2009) (emphasis added).
A fee is permissible if it supports a project with "at
least a functional relationship to facilities used by the
fee payers." Id. (internal quotation marks omitted).
Here, the Port Authority plans to use the funds to
"maintain and modernize the bridges and tunnels of
the ITN," Appellee's Br. at 23, which satisfies the
"functional relationship" requirement, see Bridgeport,
567 F.3d at 87. Accordingly, the district court did not
err in dismissing Weisshaus's future projects claim.

alO
B. Scope of Our Prior Mandate

;L.

"The scope of a mandate may extend beyond
express holdings, and precludes relitigation both of
matters expressly decided [and]... impliedly resolved
by the appellate court." In re Coudert Bros. LLP, 809
F.3d 94, 99 (2d Cir. 2015) (internal quotation marks
and alterations omitted). "A mandate, therefore, may
expressly dispose of certain issues raised on appeal, or
if the disposition of an issue is necessarily implied by
our decision, a mandate may also foreclose such an
issue from being considered by the lower court." Id.
(internal quotation marks omitted). "The district court
must follow both the specific dictates of the remand
order as well as the broader spirit of the mandate." Id.
(internal quotation marks omitted).
Here, our remand order directed the district
court to "analyze the adequacy of Weisshaus's
pleadings with respect to a dormant Commerce
Clause claim by applying the standard the Supreme
Court set out. . . for analyzing the reasonableness of
fees charged for use of state-provided facilities."
Weisshaus, 497 F. App’x at 105. We instructed the
district court "to determine in the first instance
whether Weisshaus has adequately pleaded such a
claim or should be granted leave to amend the claim."
Id. at 104-05. We then affirmed the dismissal of
Weisshaus's claims in all other respects. Id. at 106. To
the extent that Weisshaus attempted on remand to
raise claims other than the dormant Commerce
Clause, the district court was correct to dismiss them
as beyond the scope of this Court's mandate.

all
C. Minimum Wage Claim
In his original complaint, Weisshaus asserted
that the post-2011 toll rate "exceeds the minimum
wage guideline of what a person under such income
conditions can afford .... Thus, these tolls are targeted
to restrict minimum wage earners the right to travel."
Our prior panel affirmed the dismissal of Weisshaus's
right-to-travel claim, stating that "travelers do not
have a constitutional right to the most convenient
form of travel, and minor restrictions on travel simply
do not amount to the denial of a fundamental right."
Weisshaus, 497 F. App’x at 104 (internal quotation
marks omitted).
In his amended complaint, Weisshaus made
essentially the same allegation that the toll was
prohibitively expensive for a minimum wage earner,
but instead presented it as the foundation of a
dormant Commerce Clause claim. He asserted that
the toll rate's chilling effect on travel for prospective
minimum wage earners discriminated against
interstate commerce. An independent review of the
record and relevant case law reveals that the district
court properly held that this claim fares no better
when pursued under the Commerce Clause.
IV.

Leave to Amend

The district court's denial of Weisshaus's motion
to amend the complaint was based, at least in part, on
the factfinding it drew from AAA, which Weisshaus
disputed. See S. App'x at 34 ("To the extent that
plaintiffs Proposed Second Amended Complaint

alZ
claims that the ITN was operating at a profit, and
therefore, the need for the 2011 Toll Increase was
motivated by an 'ulterior motive of setting the tolls at
its highest level,' the court notes that it has previously
addressed the issue in AAA").
The district court
should reconsider its denial of that motion for the
reasons discussed above.
We have considered all of Weisshaus's.remaining
arguments and find them to be without merit.
Accordingly, we AFFIRM the judgment of the district
court in part, VACATE in part, and REMAND the
action for further proceedings consistent with this
order.
FOR THE COURT:
Catherine 0:Hagan Wolfe, Clerk of
Court
[Stamp]
United States
Court of Appeals
Second Circuit

al3
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
YOEL WEISSHAUS,
Plaintiff,
v.
PORT AUTHORITY OF '
NEW YORK AND NEW
JERSEY,

Before: Richard K.
Eaton, Judge"
Court No. 11 Civ.
06616 (RKE)

Defendant.
OPINION
Eaton, Judge: Before the court is defendant Port
Authority of New York and New Jersey’s (“defendant”
or “Port Authority”) motion to dismiss plaintiff Yoel
Weisshaus’ (“plaintiff’ or “Weisshaus”) December 20,
2013 amended complaint (“Amended Complaint”), see
Def.’s Mem. Supp. Mot. Dismiss, ECF No. 37 (“Def.’s
Br.”); Def.’s Mem. Opp’n Pl.’s Mot. Leave to Am., ECF
No. 66 (“Def.’s Suppl. Br.”); see also Am. Compl., ECF
No. 26, and plaintiffs cross-motion asking the court to
grant him leave to file a second amended complaint
(“Proposed Second Amended Complaint”). See Pl.’s
Combined Mem. Suppl. Opp’n Mot. Dismiss and in
Supp. Mot. Leave to Am., ECF No. 64 (“Pl.’s Suppl.
Br.”); Pl.’s Cross-Mot. Ex. 1, ECF No. 65-3 (“Pro­
posed Second Am. Compl.”).
* Richard K. Eaton, Judge of the United States Court of
International Trade, sitting by designation.

al4
Plaintiff opposes defendant’s motion to dismiss,
and defendant opposes plaintiffs motion to amend his
complaint a second time. See Pl.’s Mem. Opp’n Mot.
Dismiss, ECF No. 44 (“Pl.’s Br.”); see also Pl.’s Suppl.
Br. 1; Def.’s Suppl. Br. 1. Because in both the Amend­
ed Complaint, and the Proposed Second Amended
Complaint, plaintiff fails to state a claim upon which
relief can be granted, the court grants defendant’s mo­
tion to dismiss, and denies plaintiffs cross-motion for
leave to amend.1

BACKGROUND
I.

FACTS

This case arises out of the same facts as those that
gave rise to the court’s opinion in AAA Northeast v.
Port Authority of New York & New Jersey, 221 F.
Supp. 3d 374 (S.D.N.Y. 2016) {“AAA Northeast”).
The Port Authority, is a bi-state governmental
agency created by compact between New York and
New Jersey with consent of the United States Con­
gress, and is responsible for construction,
maintenance, operation, and control of all vehicular
bridges and tunnels connecting New York and New
Jersey, including the Bayonne Bridge, the Outerbridge
Previously, the court notified the parties that it was con­
sidering partially converting defendant’s motion to dismiss into a
motion for summary judgment, and invited the parties to submit
their views. See Order dated Aug. 31, 2018, ECF No. 67. Upon
consideration of the submissions, defendant’s motion will not be
partially converted into one for summary judgment.

al5
Crossing, the Goethals Bridge, the George Washing­
ton Bridge, the Holland Tunnel, and the Lincoln
Tunnel. See N.Y. Unconsol. Laws § 6401, et seq.
(McKinney 2018); N.J. Stat. Ann. § 32:1-118 (West
2018). In addition, the Port Authority operates “the
interstate Port Authority Trans-Hudson (“PATH”)
Rail System; three bus terminals (the Port Authority
Bus Terminal, George Washington Bridge Bus Sta­
tion, and Journal Square Transportation Center); two
truck terminals; seven marine terminals; four airports;
two heliports; and the sixteen-acre World Trade Cen­
ter site.” AAA Northeast, 221 F. Supp. 3d at 376. The
Tunnels, Bridges & Terminals Line Department, the
PATH Rail System Line Department, and the ferries
program collectively comprise the “Interstate Trans­
portation Network” (the “ITN”).2 Id.
The Port Authority is governed by a board of
twelve commissioners, six from each state. N.Y. UN2 As discussed in detail by the court in AAA Northeast:
While the concept of the ITN is rooted in the state laws
implementing the compact that created the Port Authority,
the term was first used in Judge Pollack’s opinion in Au­
tomobile Club of New York, Inc. v. Port Authority of New
York & New Jersey (AAA 1989 I), 706 F. Supp. 264
(S.D.N.Y. 1989), which was affirmed by Chief Judge Oak­
es’ opinion in Automobile Club of New York, Inc. v. Port,
Authority of Neiv York & New Jersey (AAA 1989 II), 887
F.2d 417 (2d C.ir. 1989).
AAA Northeast, 221 F. Supp. 3d at 376. Moreover, “[ajlthough
the concept of the ITN is a fixture in case law and the Port Au­
thority may take it into account in its capital plan, it does not
otherwise account for it separately on its books and records.” Id.
at 377.

al6
CONSOL. Law § 6405. The bi-state statutes allow the
Port Authority to . collect tolls at the bridge and tunnel
facilities. See id. § 6501; N.J. Stat. Ann. § 32:1-118.
On August 5, 2011, the Port Authority announced,
in a press release, a proposal to increase the tolls on its
tunnels and bridges. Among other things, the press
release stated:
.

Following direction by [the governors of New
York and New Jersey], the Port Authority of
New York and New Jersey Board of Commis­
sioners today approved a two-part plan to restore
fiscal health to the agency by increasing toll and
fare rates at a lower level than originally pro­
posed and demanding accountability through a
stringent agency-wide review....
The $25.1 billion immediate 10-year capital plan
will generate more than 131,000 jobs and was
achieved by giving critical attention to safety, se­
curity and state-of- good-repair projects,
including completion of the World Trade Center,
while and phasing in other less immediate pro­
jects over more than 10 years. Approximately 60
percent of the plan, $15 billion, will be invested in
the next four years supporting a much needed
boost to the regional economy. The immediate
projects funded in the plan include:
• George Washington Bridge suspender
ropes
• Lincoln Tunnel Helix rehabilitation
• Bayonne Bridge roadway raising

al7
• New Goethals Bridge with both Port
Authority and private investment
• PATH Car, signal, and station moderni­
zations
• Airport runway and taxiway moderniza­
tions
• Security enhancements at all facilities
• Port infrastructure improvements to rail
and roads in the port
• Completion of the World Trade Center
The revised toll and fare rates recognize the se­
vere financial constraints facing the agency and
the financial limitations on regional commuters
and businesses dependent on the Port Authori­
ty’s transportation network each day.
Am. Compl. Ex. A, ECF No. 26-1.
On August 19, 2011, the Port Authority Board of
Commissioners met and approved a toll increase that
began on September 18, 2011 (the “2011 Toll In­
crease”). Am. Compl. Ex. A; see also AAA Northeast,
221 F. Supp. 3d at 376-77 (detailing the facts sur­
rounding the toll increase). The 2011 Toll Increase
included a $1.50 increase for all users, and an addi­
tional $2 penalty for users paying with cash (instead of
with E-ZPass), rounded up to the nearest dollar. From
December 2012 through December 2015, the tolls in­
creased an additional $0.75 each year. In addition,
fares on the PATH train increased $0.25 per year
from 2011 to 2014. See Am. Compl. Ex. A.

al8
II.

A;

PROCEEDINGS

On September 19, 2011, Weisshaus, a New Jersey
resident who has used the Port Authority’s. surface
river crossings to commute to New York City, pro­
ceeding pro se, filed his original Complaint against the
Port Authority, challenging the constitutionality of the
Port Authority’s 2011 Toll Increase. See generally
Compl., ECF No. 2. On October 24, 2011, Judge Debo­
rah A. Batts3 dismissed the Complaint sua sponte. See
Order dated Oct. 24, 2011, ECF No. 4. On December
8, 2011, by order of Judge Loretta A. Preska, this
Court denied plaintiffs motion for reconsideration. See
Order dated Dec. 8, 2011, ECF No. 9. Plaintiff ap­
pealed Judge Batts’ dismissal, and, on September 20,
2012, the Second Circuit affirmed in part and remand­
ed. See Weisshaus v. Port Auth. of New York & New
Jersey, 497 F. App’x 102 (2d Cir. 2012). On remand,
the court was directed to “determine in the first in­
stance whether Weisshaus has adequately pleaded [a
dormant Commerce Clause claim] or should be grant­
ed leave to amend the claim.” Id. at 105. The Second
Circuit also indicated that “the district court may, in
its discretion, consider staying the action pending a
decision in Automobile Club of New York, Inc. v. Port
Authority of New York & New Jersey, No. 11-CV6746 (S.D.N.Y. filed Sept. 27, 2011).” Id.
3 This case was first assigned to Judge Deborah A. Batts.
On October 24, 2011, Judge Batts directed the Clerk of Court to
assign the case to Judge Loretta A. Preska. On June 10, 2013,
following remand, this case was reassigned to Judge George B.
Daniels until June 18, 2013, when the case was reassigned to the
court.

al9
Following the remand, the case was reopened on
February 15, 2013. Thereafter, on August 21, 2013,
plaintiff filed a letter with the court asking for leave to
file an amended complaint in accordance with the Sec­
ond Circuit decision. Letter from Yoel Weisshaus
(Aug. 21, 2013), ECF No. 19. The court granted plain­
tiffs request, and plaintiff filed his Amended
Complaint on December 20, 2013. See Order dated
Oct. 30, 2013, ECF No. 23; Am. Compl. Subsequently,
defendant filed a motion to dismiss, which included an
application to stay proceedings pending the decision in
AAA Northeast, because of the substantial similarities
between the cases.4 See Def.’s Br. 1. On June 8, 2015,
the court stayed the case pending the results of AAA
Northeast. Order dated June 8, 2015, ECF No. 56
(“June 8, 2015 Order”). On November 18, 2016, the
court issued its decision granting the Port Authority’s
motion for summary judgment in AAA Northeast.
AAA Northeast, 221 F. Supp. 3d at 392 (finding that
plaintiffs “failed to create a triable issue of fact as to
whether the toll and fare increases are not a ‘fair ap­
proximation of use of the facilities’ and are ‘excessive
in relation to the benefits conferred’ to users of the
ITN.”).
Following the AAA Northeast decision, on March
20, 2017, the court held a status and scheduling con­
ference with the parties, lifted the stay, and granted
the parties an opportunity to submit supplemental
4 Like Weisshaus, the AAA Northeast plaintiffs claimed
that the 2011 Toll Increase was unconstitutional, alleging that the
Port Authority diverted toll revenue to fund non-ITN projects.

a20
briefing. Order dated Mar. 20, 2017, ECF No. 62. In
the supplemental briefing, plaintiff asks the court to
deny defendant’s motion to dismiss for failure to state
a claim, and further seeks to amend his complaint for a
second time “to flesh out further the facts that would
aid in reviewing this case on its merits.” Pl.’s Suppl.
Br. H 24. Defendant opposes as futile plaintiffs motion
for leave to amend, and claims that, under AAA
Northeast, this case should be dismissed in its entirety
for failure to state a claim. See Def.’s Suppl: Br; 3. For
the reasons stated below, the court denies as futile
plaintiffs motion to amend his complaint a second
time, and dismisses this case in its entirety.
STANDARD OF REVIEW
When reviewing a motion to dismiss under Feder­
al Rule of Civil Procedure 12(b)(6), the court’s role “is
‘merely to assess the legal feasibility of the complaint,
not to assay the weight of the evidence which might be
offered in support thereof.’” Sims v. Farrelly, No.
7:10-CV-4765 (VB), 2011 WL 4454942, at *1
(S.D.N.Y. Sept. 26, 2011) (quoting Ryder Energy Distrib. Corp. v. Merrill Lynch Commodities, Inc., 748
F.2d 774, 779 (2d Cir. 1984)). All factual allegations in
the complaint must be accepted as true, and the com­
plaint must be viewed in the light most favorable to
the plaintiff. Gibbons v. Malone, 703 F.3d 595, 599 (2d
Cir. 2013). Threadbare assertions and mere legal con­
clusions, however, are insufficient to state a claim. See
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)). Alt­
hough pro se complaints must contain sufficient

a21
factual allegations to meet the plausibility standard,
the court reads pro se complaints with special liberali­
ty, and interprets them to raise the “strongest
arguments that they suggest.” Alroy v. City of New
York Law Dep’t, 69 F. Supp. 3d 393, 397-98 (S.D.N.Y.
2014) (quoting Triestman v. Fed. Bureau of Prisons,
470 F.3d 471, 474 (2d Cir. 2006)); see Erickson v. Pardus, 551 U.S. 89, 94 (2007).
Meeting the plausibility standard is a “contextspecific” analysis, wherein the court must “draw on its
judicial experience and common sense.” Harris v.
Mills, 572 F.3d 66, 72 (2d Cir. 2009) (quoting Iqbal,
556 U.S. at 679). Where the defendant has set forth an
“obvious alternative explanation” for the plaintiffs al­
leged facts, the plaintiff must show “something more”
to achieve plausibility. See Twombly, 550 U.S. at 554,
560, 567; N.J. Carpenters Health Fund v. Royal Bank
of Scotland Grp., PLC, 709 F.3d 109, 121 (2d Cir.
2013). Specifically, the plaintiff may need to provide
facts that “tend[] to exclude the possibility that the
[defendant’s] alternative explanation is true.” In re
Century Aluminum Co. Sec. Litig., 729 F.3d 1104,
1108 (9th Cir. 2013) (citation omitted).
Federal Rule of Civil Procedure 15(a) declares
that leave to amend shall be given “when justice so re­
quires.” Fed. R. Civ. P. 15(a)(2). Leave to amend
should be granted when the court “cannot conclude
that amendment would be futile.” Absolute Activist
Value Master Fund Ltd. v. Ficeto, 677 F.3d 60, 71 (2d
Cir. 2012). “[I]t is within the sound discretion of the
district court to grant or deny leave to amend.”

a22
McCarthy v. Dun & Bradstreet Corp., 482 F.3d 184,
200 (2d Cir. 2007). The adequacy of the proposed
amended complaint is judged by the same standard as
that applied to a motion to dismiss for failure to state a
claim, under Rule 12(b)(6). See Gen. Elec. Capital Fin.
Inc. v. Bank Leumi Tr. Co. of New York, No. 95 Civ.
9224, 1999 WL 33029, at *5 (S.D.N.Y. Jan. 21, 1999).
Therefore, the allegations must “state a claim to relief
that is plausible on its face.” Twombly, 550 U.S. at 570.
Moreover, the claim must contain enough facts such
that it is possible to show that the pleader is entitled
to relief. Id. at 555. The complainant’s right to relief
cannot be merely speculative. Id.
DISCUSSION
I.

Weisshaus’ Amended Complaint

In Weisshaus v. Port Auth. of New York & New
Jersey, the Second Circuit affirmed the dismissal of all
of plaintiffs claims, except the claim relating to the
dormant Commerce Clause. On remand, the Second
Circuit directed the court to “analyze the adequacy of
Weisshaus’s pleadings with respect to a dormant
Commerce Clause claim by applying the standard the
Supreme Court set out in [Northwest Airlines] for an­
alyzing the reasonableness of fees charged for use of
state-provided facilities.” Weisshaus, 497 F. App’x at
105. The Commerce Clause gives Congress the power
“[t]o regulate Commerce with foreign Nations, and
among the several States.” U.S. CONST, art. I, § 8, cl.
3. “From this federal grant of regulatory power flows
‘[t]he negative or dormant implication of the Com-

a23

merce Clause[, which] prohibits state taxation or regu­
lation that, discriminates against or unduly burdens
interstate commerce and thereby impedes free private
trade in the national marketplace.’” AAA Northeast,
221 F. Supp. 3d at 382 (quoting Selevan v. N.Y.
Thruway Auth., 584 F.3d 82, 90 (2d Cir. 2009)).
To determine whether the imposition of fees for
the use of state-provided facilities violates the dormant
Commerce Clause, the three-pronged test of North­
west Airlines, Inc. v. County of Kent, 510 U.S. 355
(1994), is used. Pursuant to the Northwest Airlines
test, a fee is reasonable, and thus constitutionally per­
missible, “if it (1) is based on some fair approximation
of use of the facilities, (2) is not excessive in relation to
the benefits conferred, and (3) does not discriminate
against interstate commerce.” Id. at 369 (citation
omitted).
In his Amended Complaint, plaintiff asserts that
the 2011 Toll Increase violates the dormant Commerce
Clause because (1) the Port Authority’s “purpose of the
'penalty per [axle] for payment in cash0 is not based on
the fair approximate use of facilities because the pen­
alty is on the mode of payment,” and imposing a
penalty for payment in cash “exceeds the benefit con­
ferred” to users; (2) a “charge for future construction
is for a future purpose that has yet to mature as ser­
vice fruition for the user” and therefore “exceeds the
approximation of facilities and exceeds the benefit
conferred”; (3) the toll is being used to fund projects
5 Among plaintiffs concerns is that those drivers who pay
in cash are charged more than those who pay using E-ZPass.

a24

that plaintiff claims are not functionally related to the
ITN, including the raising of the Bayonne Bridge, air­
port runway and taxiway modernization, security
enhancements, Port Authority infrastructure rail and
roads in the port, and the World Trade Center re­
building; and (4) it outweighs the benefit of earning
local hourly wages in New York City.6 Am. Compl. 1111
69, 70, 90-95, 101. For the following reasons, the court
finds that plaintiffs Amended Complaint fails to state
a claim on which relief can be granted.
A. Penalty for Payment in Cash
Plaintiff first argues that the 2011 Toll Increase’s
penalty for payment in cash “imposes an undue burden
on interstate commerce and punishes those without a
transponder from E-ZPass; exceeds the fair approxi­
mation of costs to collect a toll; and exceeds the
benefits conferred.” Pl.’s Br. 14. Plaintiff also claims
6 Although plaintiffs Amended Complaint makes other
claims—including, inter alia, .claims under the Coinage Clause,
Tonnage Clause, Due Process Clause, and Freedom of Infor­
mation Code—the Second Circuit specifically limited the court’s
review to the plausibility of Weisshaus’ claims under the dormant
Commerce Clause. Therefore, notwithstanding plaintiffs argu­
ments that these claims are still related to his dormant Commerce
Clause claim, the court will not address them here. See Weiss­
haus, 497 F. App’x at 105. Moreover, the court notes that while
plaintiff asserts that various capital projects which received toll
proceeds did not, according to plaintiff, get the required legisla­
tive approval, this claim was not in plaintiffs original Complaint,
and therefore, is not properly before the court. Even if it were,
however, such a claim does not arise under the dormant Com­
merce Clause, and therefore, in accordance with the remand
order, is not for review here.

a25
that “the purpose of the penalty is to compel plain­
tiff or similar situated individuals to purchase a
transponder from E-ZPass before entering the City of
New York.” Am. Compl. 11 70. Thus, plaintiff argues
that the penalty for users paying in cash violates the
dormant Commerce Clause.
The court disagrees. For plaintiff to succeed on
this claim, he must allege facts which, if taken as true,
show that he could be entitled to relief. See Twombly,
550 U.S. at 555, 570; Iqbal, 556 U.S. at 678. This Court
has previously found that “discounts realized by fre­
quent drivers are offset because in passing through
the tolls more often, [E-ZPass] drivers are paying
higher total amounts in tolls.” Saunders v. Port Auth.
of New York & New Jersey, No. 02 Civ. 9768 (RLC),
2004 WL 1077964, at *4 (S.D.N.Y. May 13, 2004). In­
deed, the Saunders Court, went on to find that the EZPass discount program and other frequency-of-use
discount programs are constitutional and do not dis­
criminate against interstate commerce. See id. at *5
(emphasis added) (“The plaintiff[’s] argument fails on
several grounds. Because the E-ZPass program is
used in at least 5 other states in the region and eligi­
bility is not contingent on residency, the burden [on
interstate commerce] has not been demonstrated even
if all facts are taken as true. Also noteworthy are the
benefits to local traffic flow. The electronic toll system
facilitates traffic flow because drivers may pass
through toll plazas without stopping to pay. The EZPass customer benefits from the expedited process of
collection and is able to travel without interruption.
The [E-ZPass program] also benefits drivers who are

a26
not [E-ZPass] customers because [E-ZPass] drivers
are removed from the lines intended for drivers pay­
ing in cash.”). Accordingly, because the court agrees
with this Court’s decision in Saunders, plaintiffs first
claim fails to state a claim on which relief can be
granted.

■w

2

B. Future Construction
Next, plaintiff argues that the 2011 Toll Increase
“did not reflect a fair approximation of use of facili­
ties” because the “price exceeded the benefit
conferred by charging commuters for a service that
has yet to mature.” Pl.’s Br. 21. For plaintiff, because
the “Toll Rate increased in 2011, but most investments
of the 10-Year Capital Plan will not take place before
2018,” the toll increase does not reflect a fair approxi­
mation of use, and violates the dormant Commerce
Clause. Pl.’s Br. 20-21.
The court finds that this argument also fails to
state a claim under the dormant Commerce Clause.
This Circuit has held that a “user fee,” such as the toll
increase at issue here, “may reasonably support the
budget of a governmental unit that operates facilities
that bear at least a ‘functional relationship’ to facilities
used by the fee payers.” Bridgeport & Port Jefferson
Steamboat Co. v. Bridgeport Port Auth., 567 F.3d 79,
87 (2d Cir. 2009). An obvious part of that budget are
capital projects required to improve infrastructure
and keep facilities in a state of good repair. Thus, as
the Bridgeport Court made clear, if facilities or pro­
jects in a governmental unit’s capital plan are
“functionally related” to the facilities used by toll pay-

a27
ers, allocating portions of a toll to construct or improve
such projects is constitutional. See id. at 87-88. Simply
because certain projects may not have begun at the
time the toll increase went into effect does not make
the toll inherently “excessive.” Cf AAA Northeast,
221 F. Supp. 3d at 392 (“At bottom, plaintiffs have
simply failed to create a triable issue of fact as to
whether the toll and fare increases are not a ‘fair ap­
proximation of use of the facilities’ and are ‘excessive
in relation to the benefits conferred’ to users of the
ITN.”).7
Plaintiff points to no authority tending to suggest
that the dormant Commerce Clause demands that
newly built projects or repairs be operational at the
time increased tolls are imposed. Therefore, the court
finds that plaintiffs argument regarding the 2011 Toll
Increase being applied to future construction fails to
state a claim under the dormant Commerce Clause.
C. Functional Relationship to the ITN of
Projects Funded by 2011 Toll Increase
Next, plaintiff claims that the 2011 Toll Increase
violates the dormant Commerce Clause because it is
being applied to projects that are not functionally re­
lated to the ITN. Specifically, plaintiff claims that,
7 The AAA Northeast court also found that certain con­
tested projects, such as the Bayonne Bridge and the Lincoln
Tunnel Access Project (also contested here), were “functionally
related” to the ITN. AAA Northeast, 221 F. Supp. 3d at 389.
Moreover, as noted above, the court found that even “after im­
properly eliminating the expense of [these] contested ITN
projects,” the ITN would be operating at a deficit. See id. at 386.

a28

based on a Port Authority press release, “[t]he Port
Authority gave to the public the impression that the
Toll Rate increase[ was] to subsidize the World Trade
Center, aviation, port commerce, and the security of
non-ITN facilities,” and therefore, “[discovery is nec­
essary to verify whether the Port Authority
designates any toll revenues for these non-ITN pur­
poses.” PL’s Br. 24.

■Y:

This claim is almost identical to the claim in AAA
Northeast.8 In AAA Northeast, the plaintiffs argued
that “the toll and fare increases were unlawful because
a portion of the proceeds would be diverted for recon­
struction of the World Trade Center site which[]
would cause an apparent, but sham, deficit for the
ITN.”9 AAA Northeast, 221 F. Supp. 3d at 378. The
court found, however, that the ITN was not generat­
ing excess funds that the Port Authority could divert
for projects outside of the ITN. See id. at 386 (“[T]he
ITN would show a deficit in 2010 leading up to the
[2011] toll increase—and that deficit exists [even] after
improperly eliminating the expense of [the] contested
8 Indeed, as discussed above, the court stayed this case
pending resolution of AAA Northeast because of the “substantial
similarities” between the two cases. See Order dated Mar. 27,
2015, ECF No. 55; see also June 8, 2015 Order..
9 Specifically, the claim alleged “that the increases were
unreasonable under the Dormant Commerce Clause because the
inclusion of the World Trade Center . . . improperly distorts the
Port Authority’s rate of return,-creating the illusion that a toll in­
crease is justified when in fact the Port Authority’s integrated,
interdependent transportation system is providing a significant
surplus.” AAA Northeast, 221 F. Supp. 3d at 378.

a29
ITN projects.”); see also id. (“[I]t was made clear re­
peatedly that the revenue . . . being raised at the
crossings, the PATH, the bus terminals, [and the] bus
stations . . . was growing a deficit when compared to
the growing expenditure need[s] of those very facili­
ties. [Thus, the ITN] had a deficit of those facilities
upon [the Port Authority Deputy Executive Director’s]
arrival, ... a deficit prior to the August 5th memoran­
dum [concerning the toll and fare increases], ... a
deficit after the toll and fare increase went into effect,
and . . . ha[s] a deficit today.”). Because the ITN had
been operating at a deficit, even with the 2011 Toll In­
crease in effect, and because the plaintiffs did not
produce any evidence tending to suggest that funds
were being diverted toward non-ITN projects, the
court dismissed the plaintiffs’ claim that the 2011 Toll
Increase violated the dormant Commerce Clause. See
id. at 386-87 (“‘[T]here would have been negative cash
flows from the ITN during the period [from 20072010].’ ... In the absence of evidence that the tolls
have or will produce a surplus in the ITN, AAA’s rate
of return arguments fail.”).
A well-pleaded complaint “calls for enough fact[s]
to raise a reasonable expectation that discovery will
reveal evidence” supporting the plaintiffs claim.
Twombly, 550 U.S. at 556. When the defendant has
established an “obvious alternative explanation” to the
plaintiffs allegations of fact, plaintiffs claim will fail
unless he can “nudge[ his claim] across the line from
conceivable to plausible.” Id. at 567, 570. Here, Weisshaus claims that portions of the 2011 Toll Increase
were being diverted toward certain non-ITN projects,

IK

7

a30
including the World Trade Center. As the Port Au­
thority emphasizes, the court has previously
addressed the question of whether the Port Authority
was using the 2011 Toll Increase proceeds for nonITN purposes, and found that there was no money left
over, after capital expenditures and reserve require­
ments for ITN projects had been allocated, that could
be diverted toward such projects. AAA Northeast, 221
F. Supp. 3d at 383 n.6,' 387 (“Based on the testimony of
its officers, the Port Authority claims that its version
of a cash flow analysis shows there was no surplus re­
sulting from the toll and fare increases, and therefore
no funds are available to be used on projects outside of
the ITN.”); see Def.’s Suppl. Br. 4-6. Indeed, the court
found that there was no evidence indicating that the
toll monies were being used for non-ITN projects. See
AAA Northeast, 221 F. Supp. 3d. at 391 (“[I]t is ap­
parent that plaintiffs have presented no evidence
tending to show that revenue from the toll and fare in­
creases was, or would be, used in a manner that
violated the Dormant Commerce Clause.”). The Port
Authority presents the AAA Northeast finding as an
established and plausible explanation of their conduct,
and Weisshaus has not meaningfully distinguished his
allegations of fact from those that failed to expose the
Port Authority to liability in AAA Northeast. The
court agrees that the opinion in AAA Northeast estab­
lishes an obvious alternative explanation to plaintiffs
factual allegations, and thus, to his claims.
In further support of the Port Authority’s alterna­
tive explanation, AAA, in its case, conducted extensive
discovery into the Port Authority’s finances and pre-

a31
sented its findings to the court. Based on this discov­
ery, the court concluded that there was simply no
money, obtained from the increased tolls, to subsidize
any non-ITN project. AAA Northeast, 221 F. Supp. 3d
at 386 (“[I]t is apparent that AAA’s other arguments
are without merit. First, as the Port Authority points
out, and as revealed by the Navigant and Rothschild
Reports, even under the flawed rate of return analysis
that the AAA sponsors, the ITN would show a deficit
in 2010 leading up to the toll increase—and that deficit
exists after improperly eliminating the expense of
[the] contested ITN projects.”). Indeed, the court
stayed this case pending resolution of any and all mo­
tions for summary judgment in AAA Northeast. The
clear reason for the court’s specific provision for a stay
was so that the decision in AAA. Northeast would in­
fluence the findings here. Faced by the full weight of
these facts, Weisshaus has not shown that his allega­
tions of fact could lead the court to reasonably find the
Port Authority liable on facts that have already been
determined to foreclose liability. Thus, plaintiff’s claim
that portions of the 2011 Toll Increase are being di­
verted to projects not functionally related to the ITN
fails to state a claim under the dormant Commerce
Clause. Because the court previously decided that
there were no toll revenues that could have been di­
verted to projects outside of the ITN, plaintiffs claim
that the 2011 Toll Increase is being used to fund nonITN projects, such as the “airport runway” or “taxi­
way modernization,” necessarily fails to allege facts
sufficient to satisfy the pleading standard. See, e.g.,
Twombly, 550 U.S. at 554.

a32
D. Minimum Wage Workers
Next, plaintiff claims that the 2011 Toll Increase
violates the dormant Commerce Clause because it
“burdens the benefit that someone from New Jersey
earns in the City of New York on a day’s local hourly
earnings in wages,” by “outweighing the benefit of
earnings under the local hourly wage,” ie., the mini­
mum wage. Am. Compl. HH 109,115.
To the extent that Weisshaus is asserting that the
2011 Toll Increase discriminates against interstate
commerce because New Jersey residents working
minimum wage jobs in New York are less inclined to
commute for work because of the tolls, his claim fails as
a matter of law. “[A] state regulation discriminates
against interstate commerce only if it impose[s] com­
mercial barriers or discriminate[s] against an article
of commerce by reason of its origin or destination out
of State.” Angus Partners LLC v. Walder, 52 F. Supp.
3d 546, 560-61 (S.D.N.Y. 2014) (quoting Selevan, 584
F.3d at 95). Moreover, “in order to state a claim for
discrimination in violation of the Commerce Clause, a
plaintiff must identify an[] in-state commercial in­
terest that is favored, directly or indirectly, by the
challenged statutes at the expense of out-of-state
competitors.” Selevan, 584 F.3d at 95 (citation omit­
ted). The “critical consideration” in determining
whether a toll discriminates against interstate com­
merce “is the overall effect of the [regulation] on both
local and interstate activity.” Brown-Forman Distill­
ers Corp. v. N.Y. State Liquor Autk, 476 U.S. 573, 579
(1986). Here, plaintiffs complaint fails to allege any
facts that there is an in-state interest favored to the

a33
detriment of an out-of-state interest. Indeed, although
a toll may be collected from a traveler going in one di­
rection, the toll itself is for a roundtrip. Accordingly,
plaintiff fails to state a claim that the toll discriminates
against interstate commerce.
Even under the so-called Pike test, where a nondiscriminatory regulation that “regulates evenhandedly to effectuate a legitimate local public inter­
est” is nevertheless unconstitutional if “the burden
imposed on [interstate] commerce is clearly excessive
in relation to the putative local benefits,” plaintiffs
claim fails as a matter of law. See Pike v. Bruce
Church, Inc., 397 U.S. 137, 142 (1970) (citation omit­
ted). Put simply,'plaintiff fails to allege any facts that
there is a local public interest that, presumably, New
York seeks to effectuate by way of the Port Authority’s
2011 Toll Increase.10 See United Haulers Ass’n, Inc. v.
Oneida-Herkimer Solid Waste Mgmt. Auth., 550 U.S.
330, 346 (2007) (“[The Pike test] is reserved for laws
directed to legitimate local concerns, with effects upon
interstate commerce that are only incidental.”) (cita­
tion omitted). Accordingly, plaintiffs claim regarding
the burden on minimum wage workers fails under the
dormant Commerce Clause.
II.

Weisshaus’ Proposed Second Amended
Complaint

10 It is not entirely clear what the “local” interest would be
here as the Port Authority is a bi-state governmental agency cre­
ated by compact between New York and New Jersey, and the
2011 Toll Increase applies equally to both New York residents
and out-of-state residents.

a34
Finally, in an attempt to get around AAA North­
east, plaintiff asks the court to grant him leave to
amend his complaint a second time, claiming that
“[t]he proposed second amended complaint has the
exact same legal theories as the amended complaint”
and that “[t]he basis for amending is to flesh out fur­
ther the facts that would aid in reviewing this case on
its merits.”Pl.’s Suppl. Br. II24.

Z'-

Even a liberal reading of both the Amended Com­
plaint and the Proposed Second Amended Complaint,
however, demonstrates that plaintiffs proposed com­
plaint creates an entirely new legal theory of the case.
In particular, plaintiff asserts that defendant “first
concocted an affordability envelope,1[11] a figure that
sets the maximum price of tolls the public can be
asked to bear,” and “later ... went digging for capital
projects that would overshadow the need for the [2011]
increase in the toll price.”12 Pl.’s Aff. Supp. Leave to
Am. II18, ECF No. 65-1. In other words, by way of his
Proposed Second Amended Complaint, plaintiff now
claims that the 2011 Toll Increase was enacted not to
11 In his Proposed Second Amended Complaint, plaintiff
defines an “affordability envelope” as “an accounting term-of-art
defining the maximum balloon of the price a constituent or con­
sumer can be pushed to pay under affordable constraints.”
Proposed Second Am. Compl. 1138n.l.
12 Plaintiff claims that documents produced by the Port
Authority on November 5, 2015, form the basis for his request to
amend. The documents attached to plaintiffs Proposed Second
Amended Complaint, however, appear to have been either public­
ly available at the time plaintiff filed his Amended Complaint or
were previously a part of the record in the AAA Northeast case.

a35
cover various capital expenditures, but rather, to
charge commuters as much as possible. Thus, for
plaintiff, the 2011 Toll Increase is not “based on some
fair approximation of use of the facilities,” and is “ex­
cessive in relation to the benefits conferred.” See Pl.’s
Suppl. Br. 11 8 (“The invention of an affordability enve­
lope came after the Port Authority concluded that the
2008-Toll Rate is too low compared to other agenc[ies]
that charge toll[s] and must be increased. The push for
a toll rate increase was not based to compensate costs
because the Port Authority was already operating on a
positive net income.'”).
Taken as a whole, plaintiffs Proposed Second
Amended Complaint claims that the “affordability en­
velope” theory “will show the reasons to raise [the] toll
prices [were] motivated by an ulterior motive of set­
ting the tolls at its highest level and then inventing an
excessive capital plan to excuse the excessive increase
in the toll rate,” and will “[aid] in showing that the Toll
Rate is not a compensation for service conferred on
commuter[s] and is the product of an ulterior motive.”
Pl.’s Suppl. Br. U 26. In other words, plaintiff would
have the court assess the Port Authority’s motive for
the 2011 Toll Increase rather than look to standards
already set out in AAA Northeast.
The court finds that plaintiffs Proposed Second
Amended Complaint fails to state a claim on which re­
lief can be granted. Moreover, the court further finds
that Weisshaus’ attempt to add a new theory is futile.
See Cuoco v. Moritsugu, 222 F.3d 99, 112 (2d Cir.
2000) (citations omitted) (“[W]e do not find that the

a36
[pro se] complaint liberal[ly] read /.. suggests that the
plaintiff has a claim that she has inadequately or inartfully pleaded and that she should therefore be
given a chance to reframe. . . . The problem with [the
plaintiffs] causes of action is substantive; better
pleading will not cure it. Repleading would thus be fu­
tile. Such a futile request to replead should be
denied.”); see also AEP Energy Servs. Gas Holding
Co. v. Bank of Am., N.A, 626 F.3d 699, 726 (2d Cir.
2010) (citation omitted) (“Leave to amend may be de­
nied on grounds of futility if the proposed amendment
fails to state a legally cognizable claim or fails to raise
triable issues of fact.”).
•.t

■?

In particular, even accepting plaintiffs alleged
facts as true, Weishauss’ Proposed Second Amended
Complaint would nevertheless fail to state a claim for
relief , under the dormant Commerce Clause. This is
because “[t]he law of this Circuit following Northwest
Airlines demonstrates . . . that fair approximation and
excessiveness are evaluated by objective factors-how a
toll operates in practice-and not the internally stated
reasons for its enactment.” Auto. Club of New York,
Inc. v. PortAuth. of New York & New Jersey, No. 11
Civ. 6746 (RKE/HBP), 2014 WL 2518959, at *10
(S.D.N.Y. June 4, 2014). In other words, motive does
not matter. The Northwest Airlines test is entirely
objective, i.e., it is concerned with whether the gov­
ernmental unit is using its toll proceeds on facilities or
projects that are functionally related to facilities used

a37

by toll payers, or whether any profit realized is too
high.13 Indeed, as this Court has found:
Applying the “fair approximation” prong of the
Northwest Airlines test requires the Court to
look at one thing only: the toll payers’ use (or po­
tential for use) of the facilities for which the toll is
paid.... The “excessiveness” prong compares the
amount paid by the payer to the benefits con­
ferred on him in his capacity as a consumer of
those benefits.... [T]o the extent a user fee that
was spent for services [is] of no “actual or poten­
tial benefit” to fee payers, it would “exceed the
bounds of what may reasonably serve as the basis
for the ... fee”—unless the governmental unit
were using that fee to support[] facilities that
bore “at least a ‘functional relationship’” to facili­
ties used by fee payers.
Am. Trucking Ass’ns, Inc. v. N.Y. State' Thruway
Auth., 199 F. Supp. 3d 855, 878, 879, 881 (S.D.N.Y.
2016) (citations omitted), vacated on other grounds
238 F. Supp. 3d 527 (S.D.N.Y. 2017); see also Auto.
Club of New York, 2014 WL 2518959, at *10 (“[The
Second Circuit] did not consider the [New York Thru­
way] Authority’s motivations for enacting the toll
policy or its internal deliberations in assessing prongs
(1) and (2) of the Northwest Airlines test. Other deci­
sions in this Circuit and elsewhere have utilized the
13 In this regard, however, it is not clear how much of a
profit would be too high, as “the cases indicate that tolls are per­
mitted to generate a fair profit or rate of return.” AAA Northeast,
221 F. Supp. 3d at 387 (citation omitted).

a38
same objective approach and have not considered ei­
ther the intent of the decision makers or the process
by which the decision makers made their determina­
tion.”); Janes v. Triborough Bridge & Tunnel Auth.,
977 F. Supp. 2d 320, 340 (S.D.N.Y. 2013) (emphasis
added) (“[T]he requirement of a ‘fair approximation’
seeks reasonableness and broad proportionality. It
does not require precise tailoring, or a pre-enactment
administrative record, for toll amounts to be justi­
fied.”), affd, 774 F.3d 1052 (2d Cir. 2014).
Therefore, to the extent that plaintiffs Proposed
Second Amended Complaint claims that the afforda­
bility envelope theory “will show the reasons to raise .
. . toll prices [were] motivated by an ulterior motive of
setting the tolls at its highest level and then inventing
an excessive capital plan to excuse the excessive in­
crease in the toll rate,” it fails to state a legally
cognizable claim because it looks only to the subjective
intention of the Port Authority, and not to how the toll
operates in practice.14 PL’s Suppl. Br. H 26. To the ex­
tent that plaintiffs Proposed Second Amended
14 It is worth repeating that “the relevant question in this
case is what the revenue from the toll and fare increases was ac­
tually used for, not what potential uses were considered during
preliminary planning and budgeting.” AAA Northeast, 221 F.
Supp. 3d at 394 n.14; see also id. at 392 (emphasis added) (“To
support [its] allegations ... [plaintiff] points to no record evidence
that tends to show the increases were not a fair approximation of
the use of the ITN by its users .... [S]uch a claim would need to
include more than speculation as to particular items in the Port
Authority’s 2011 ITN Capital Plan or the deliberations of its
Board of Commissioners.”).

a39
Complaint claims that the ITN was operating at a
profit, and therefore, the need for the 2011 Toll In­
crease was motivated by an “ulterior motive of setting
the tolls at its highest level,” the court notes that it has
previously addressed the issue in AAA Northeast, and
therefore, for the reasons discussed above, the Pro­
posed Second Amended Complaint does not satisfy the
pleading standard. See AAA Northeast, 221 F. Supp.
3d at 378 (“[T]he ITN would show a deficit in 2010
leading up to the [2011] toll increase—and that deficit
exists [even] after improperly eliminating the expense
of [the] contested ITN projects.”); see also Twombly,
550 U.S. at 570 (discussing the need for plaintiff to
“nudge” his claim “from conceivable to plausible”).
Any remaining claims in plaintiffs Proposed Sec­
ond Amended Complaint are identical or nearly
identical to those addressed above regarding plain­
tiffs Amended Complaint,15 and therefore, the court

16 Plaintiffs Proposed Second Amended Complaint also
claims that “the majority of capital projects” used to justify the
2011 Toll Increase have yet to break ground, and therefore, the
“benefits do not yet exist[] for commuters.” Pl.’s Suppl. Br. U 13.
This claim, however, is similar to that in Weisshaus’ Amended
Complaint that “[djefendant’s charge for future construction is for
a future purpose that has yet to mature as service fruition for the
user, and is not for the current use a payer is levied for when pass­
ing through a surface river crossing, and exceeds the
approximation of facilities and exceeds the benefit conferred.”
Am. Compl. 11 90; see Proposed Second Am. Compl. H 174. Be­
cause the court already explained why such a claim cannot
survive a motion to dismiss in the context of plaintiffs Amended
Complaint, it need not address the claim again here.

a40
will not address them again here, as the same ra­
tionale must lead to their dismissal.
Accordingly, the court denies plaintiffs motion for
leave to amend as futile because the Proposed Second
Amended Complaint, like the Amended Complaint,
fails to state a claim upon which relief may be granted.
CONCLUSION
For the foregoing reasons, the court holds that
the claims in both plaintiffs Amended Complaint and
his Proposed Second Amended Complaint fail to state
a claim upon which relief can be granted. Accordingly,
the court denies plaintiffs motion for leave to amend
his complaint for a second time, and grants defend­
ant’s motion to dismiss in its entirety. Judgment shall
be entered accordingly.
/s/ Richard K. Eaton
Richard K. Eaton, Judge
Dated: December 17, 2018
New York, New York

a41
FACED WITH CONSTRAINED CAPACITY DUE TO
HISTORIC ECONOMIC RECESSION, COUPLED
WITH BILLIONS IN WTC AND POST 9-11 SECU­
RITY COSTS, AND UNPRECEDENTED NEED FOR
INFRASTRUCTURE OVERHAUL, PORT AUTHOR­
ITY PROPOSES TOLL AND FARE INCREASE
Date: Aug 5, 2011
Press Release Number: 50
• Proposal comes after three-consecutive years of
0 percent growth in operating expenses, $5 bil­
lion in cut projects, and billions more deferred
• $2.6 billion revenue decline from original capital
plan projections due to economic recession, over
$11 billion necessary to rebuild WTC, and $6 bil­
lion in required security costs
• Failure to act risks 240 critical infrastructure
projects, immediate loss of 3,900 construction
jobs and $438 million in investment in 2011 alone
Faced with three unprecedented challenges at once - (1) a
historic economic recession that has sharply decreased rev­
enue below projections, (2) steep increases in post-9/11
security costs, which have nearly tripled, and the overall
cost of the WTC rebuilding, and (3) the need for the largest
overhaul of facilities in the agency’s 90-year history - the
Port Authority of New York and New Jersey today pro­
posed a two-phase toll and fare increase to fully fund a new
$33 billion ten-year capital plan, which will generate 167,000
jobs.
The proposal comes only after the Port Authority initiated
an aggressive cost-cutting plan started in 2008 to manage

:

a42
its resources as the impact of the economic recession be­
came clear: cutting $5 billion in capital projects and
deferring billions more; holding operating expenses at zerogrowth for three consecutive years; and cutting agency
headcount to the lowest levels in 40 years - an 11 percent
reduction of non-police staff in the last five years.
The Port Authority does not receive tax revenue, making its
toll and fare structure the primary way to fund the region’s
critical interstate transportation network. At this point, af­
ter a multiyear effort to control spending in recognition of
declining capital capacity, failure to act risks 240 critical in­
frastructure projects and thousands of jobs, and will
prevent the overhaul of the agency’s aging facilities.
M ..

The factors leading to the agency’s financial position in­
clude:
• A historic economic recession during which the
agency’s revenue declined $2.6 billion from pro­
jections made when the agency’s original tenyear capital plan was sized. Example: 11 million
fewer vehicles are crossing its bridges and tun­
nels - it will take until 2020 to reach the levels
proj ected information the year 2011.
• More than $11 billion in funding necessary to re­
build the WTC site.
• $6 billion in increased security requirement costs
since the September 11 attacks, nearly tripling
security expenditures from pre-9/11 annual
budgets (18 percent increase).
• The need for the largest overhaul in agency facil­
ities in its 90-year history.

i

a43
The new 10-year capital plan would deliver significant eco­
nomic benefits to the region, including the generation of
167,000 jobs, $38.4 billion in sales, and $9.7 billion in wages
within the 17-county New York-New Jersey Port District.
The agency’s proposed toll structure, which would be ad­
justed in September 2011 and in 2014, focuses the greatest
increase on cash users and trucks that cause the most traffic
congestion and wear and tear. In addition, the agency pro­
poses raising the PATH fare in September 2011, while fully
preserving PATH’S deep discount for multi-trip users.
Projects contingent on the proposed toll/fare plan include:
• The first replacement of all 592 suspender ropes
at the 80-year old George Washington Bridge,
the world’s busiest crossing, joining other sus­
pension bridges like the Golden Gate and RFK,
which have already replaced theirs. ($1 billion)
• The replacement of the Lincoln Tunnel Helix. It
will require major lane closures and load re­
strictions if not replaced. ($1.5 billion)
• The raising of the Bayonne Bridge, which will
solve the current clearance problem, preventing
post-PANAMAX ships from accessing key ports.
($1 billion)
'

• A new bus garage connected to the Port Authority Bus Terminal, which will serve as a traffic
reliever to the Lincoln Tunnel and midtown Man­
hattan streets, saving two-thirds of the empty
bus trips that must make two extra trips through
the tunnel each day. ($800 million)
• Significant security investments at the region’s

a44
airports, including the installation of security
barriers. ($360 million)
• The Port Authority also plans to direct 100 per­
cent of the revenue from the proposed PATH
fare increase back into the PATH system to com­
plete projects that will replace 340 PATH cars,
replace the 100-year-old signal system and duct
bank network, upgrade PATH security with tun­
nel hardening and flood mitigation measures,
and rehabilitate the system’s aging stations, in­
cluding new 10-car platforms.
To fund these major transportation and security projects,
the Port Authority’s toll/fare proposal calls for:

t

£;■

• Tolls for autos using E-ZPass on the Port Au­
thority’s crossings to increase from $6 to $10
roundtrip for off-peak travel and from $8 to $12
in peak hours. An additional $2 increase during
peak and off-peak hours will be implemented in
2014.
• A cash toll surcharge of $3 to increase the cash
rate from $8 to $15 in 2011 for the 25 percent of
toll-payers who still use the optional cash system,
similar to the MTA. The surcharge is expected to
increase the E-ZPass market share to approxi­
mately 85 percent, which will reduce travel
delays during the peak of traffic congestion by 10
to-20 minutes. The surcharge will increase by an
additional $2 in 2014.
• Truck tolls per axle using E-ZPass off-peak to in­
crease from $7 to $13 roundtrip and peak from $8
to $14, with an additional $2 per-axle-increase in

a45
2014 for both off-peak and peak hours. A similar
cash surcharge of $3 per axle will be applied to
trucks in 2011 that continue to use the optional
cash system with an additional $2 per axle in
2014.
• To further incentivize trucks to cross during the
overnight period to reduce congestion during the
day, there will be no toll increase on trucks that
cross during the overnight discount period and
the Port Authority will expand this overnight pe­
riod an extra two hours each weekday night from
10 p.m. to 6 a.m (previously midnight to 6 a.m.).
This will result in a 61 percent discount for a typ­
ical two-axle truck, which will continue to pay $11
overnight as compared to the $28 toll in 2011 for
the same truck using E-ZPass during the peak
period. Truck traffic results in the greatest wear
and tear on the bridges and tunnels - a fullyloaded tractor trailer causes as much damage to
roadway surfaces as 10,000 passenger cars.
• Fully preserving the Staten Island Bridge “Dis­
count Plan” for E-ZPass users, giving these
frequent users a 50 percent toll discount on the
peak E-ZPass toll. In addition, qualified energy
efficient vehicles with GreenPasses will see no
toll increase during off-peak hours in 2011, and
the car-poolers discount rate is preserved in 2011
with a 50 percent discount off the E-ZPass peak
hour rate. Both GreenPasses and car-poolers
would see a $2 increase in 2014.
• The base PATH fare would increase from $1.75

a46
to $2.75 in 2011, with the average fare increasing
to $2.10 from $1.30 given the steep 25 percent
discount, which will be fully preserved. The 30day unlimited pass will increase to $89 from $54.
Before the Board of Commissioners .considers a final
toll/fare plan at a Board meeting on August 19, the agency
has announced a public hearing schedule on August 16 with
nine total hearings across both states, which will be held at
the following times and places:
Newark Liberty International Airport
1 Conrad Road
Building 157, Bay 3
Newark, NJ 07114
973-961-6161
8 a.m.
Port Authority Technical Center
241 Erie Street, Room 212
Jersey City, NJ 07310
201-216-2700
8 a.m.
Port Ivory/Howland Hook
40-Western Ave.
Staten Island, NY 10303
718-330-2950
8 a.m.
Port Authority Bus Terminal
625 8th Avenue
Times Square Conference - 2nd Floor
New York, NY 10018

a47
212-502-2240
8 a.m.
George Washington Bridge Administration Building
220 Bruce Reynolds Way
Conference Room
Fort Lee, NJ 07024
201-346-4005
6 p.m.
Holland Tunnel Administration Building,
13th Street & Provost Street
Conference Room
Jersey City. NJ 07310 201-360-5021
6 p.m.
George Washington Bridge Bus Station
4211 Broadway
Lower Level Conference Room
New York. NY 10033
201-346-4005
6 p.m.
John F. Kennedy International Airport
Port Authority Administration
Building 14.2nd Floor Conference Room
Jamaica, NY 11430
718-244-3501
6 p.m.
Online Hearing, 2 p.m.

a48
www.panvnj .gov
CONTACT:
The Port Authority of N ew York and N ew Jersey
Steve Coleman or Ron Marsico, 212 435-7777
The Port Authority of New York and New Jersey, which is
self-sufficient and does not receive tax dollars from either
state, operates many of the busiest and most important
transportation links in the region. They include John F.
Kennedy International, Newark Liberty International,
LaGuandia, Stewart International and Teterboro airports,
AirTrain JFK and AirTrain Newark; the George Washing­
ton Bridge and Bus Station; the Lincoln and Holland
tunnels, the three bridges between Staten Island and New
Jersey; the PATH (Port Authority Trans-Hudson) rapidtransit system; Port Newark, the Elizabeth-Port Authority
Marine Terminal; the Howland Hook Marine Terminal on
Staten Island; the Brooklyn Piers/Red Hook Container
Terminal; the Port Authority-Port Jersey Marine Terminal
and the Port Authority Bus Terminal in midtown Manhat­
tan. The agency also owns the 16-acre World Trade Center
site in Lower Manhattan.

a49
PORT AUTHORITY BOARD APPROVES TWO-PART
FISCAL HEALTH PLAN THAT INCLUDES RE­
VISED TOLL AND FARE RATES AND DEMANDS
AGENCY ACCOUNTABILITY THROUGH COMPRE­
HENSIVE REVIEW
Date: Aug 19, 2011
Press Release Number: 93
• Plan reduces originally proposed rates
• Balances transportation and economic develop­
ment needs of region with toll and fare payers’
i
economic realities
• Approval contingent on requirement of. compre­
hensive review of the agency’s capital plan and
operations to ensure accountability
• $25.1 billion capital plan funds key projects and
will generate more than 131,000 jobs with ap­
proximately 60% invested in next four years
Following direction by Governors Chris Christie and An­
drew Cuomo, the Port Authority of New York and New
Jersey Board of Commissioners today approved a two-part
plan to restore fiscal health to the agency by increasing toll
and fare rates at a lower level than originally proposed and
demanding accountability through a stringent agency-wide
review.
Under the Governors’ direction, the Capital Plan was re­
viewed in a line-by-line analysis and was able to be reduced
by $5 billion. This allowed a reduction in the proposed toll
rates while still ensuring the agency’s finances would be sta­
bilized.
The $25.1 billion immediate 10-year capital plan will

a50
generate more than 131,000jobs and was achieved by giving
critical attention to safety, security and state-of-good-repair
projects, including completion of the World Trade Center,
while and phasing in other less immediate projects over
more than 10 years. Approximately 60 percent of the plan,
$15 billion, will be invested in the next four years supporting
a much needed boost to the regional economy. The immedi­
ate projects funded in the plan include:

a.

• George Washington Bridge suspender ropes
• Lincoln Tunnel Helix rehabilitation
• Bayonne Bridge roadway raising
• New Goethals Bridge with both Port Authority
and private investment
• PATH Car, signal, and station modernizations
• Airport runway and taxiway modernizations

it;r:'
;v i-: -

T

• Security enhancements at all facilities
• Port infrastructure improvements to rail and
roads in the port
• Completion of the World Trade Center
The revised toll and fare rates recognize the severe financial
constraints facing the agency and the financial limitations
on regional commuters and businesses' dependant on the
Port Authority’s transportation network each day. The de­
tails of the revised toll and fare rates approved today
include:
• Tolls on cars using E-ZPass will increase $1.50 in
September 2011 and then 75 cents in December
each year from 2012-2015 for a total increase of
$4.50 over five years, down from the proposed $6

a51
increase over four years.
• Cars paying with cash will have the same in­
crease, but will be subject to an additional $2
penalty (rounded up to the nearest whole dollar).
• Tolls on trucks using E-ZPass will pay an addi­
tional $2 per axle in September 2011, and then an
additional $2 per axle in December of each year
from 2012 -2015
• Tolls on trucks paying cash will have the same
increase but will be subject to an additional $3
per axle cash penalty.
• Fares on the PATH train will increase 25 cents
per year for the next four years.
Text of the Port Authority of New York and New Jersey
Toll Report and Resolution is copied below. The Board res­
olutions will also be posted on the Port Authority’s website
www.panynj.gov following the Board meeting.

TOLL INCREASES FOR VEHICULAR CROSSINGS REPORT
Faced with multiple unprecedented challenges at once - an
historic economic recession that has sharply decreased Port
Authority revenues below projections; steep increases in
post-9/11 security costs, which have nearly tripled, and the
overall cost of the World Trade Center rebuilding, and the
need for the largest overhaul of facilities in the Port Author­
ity’s 90-year history, on August 5,2011, the Port Authority
announced proposed bridges and tunnels toll and PATH
fare increases and public hearings to be conducted in con­
nection therewith.
Consistent with that announcement, on August 16, 2011,

a52
testimony and comments were received from public offi­
cials, private citizens and interested organizations at the
nine public hearings (four in each State and one via the In­
ternet) and one meeting held within the Port District.

J&X-' si
;™. -

On August 18, 2011, a letter was received from the Gover­
nors of New York and New Jersey reiterating their
previous public statements that the toll and fare increases,
as proposed by the Port Authority were unacceptable and
directing the Commissioners to examine how the Port Au­
thority could immediately reduce costs and the future needs
of the capital program in order to reduce the toll and fare
increases. The Governors further directed the Port Author­
ity to craft a toll and fare increase that reduced the burden
on drivers, commuters and businesses but insured that the
Port Authority’s finances would be stabilized.
The Governors directed a two-part approach to future fi­
nancial management, demanding accountability, review and
approval of internal practices and tracking how dollars are
being spent. The Governors also indicated that they would
not oppose a revised toll and fare increase proposal along
the following lines:
• Tolls on cars using E-ZPass will increase $1.50 in
September 2011 and then 75 cents in December
of each year from 2012-2015;
• Tolls on cars paying with cash will have the same
increase but will be subject to an additional $2
penalty (rounded up to the nearest whole dollar);
• Tolls on trucks using E-ZPass will pay an addi­
tional $2 per axle in September 2011, and then an
additional $2 per axle in December of each year
from 2012-2015;

a53
• Tolls on trucks paying cash will have the same
increase but will be subject to an additional $3
per axle cash penalty;
• Fares on the PATH system will increase 25 cents
a year for four years.
As a condition for these toll and fare increases the Gover­
nors directed the Commissioners to immediately commence
a comprehensive audit of the Port Authority focusing on
both a financial audit of the Port Authority’s ten-year capital
plan to reduce its size and cost and a review of the Port Au­
thority’s management and operations to find ways to lower
costs and increase efficiencies.
Based upon a review of the public comments received dur­
ing the public hearings and the guidance of the Governors,
staff has concluded that the toll and fare increases outlined
above provides a viable alternative that balances capital
needs with regional economic realities.
At its meeting today, the PATH Board of Directors is also
considering a change in the PATH fare structure.

TOLL INCREASE FOR VEHICULAR CROSSINGS RESOLUTION
Pursuant to the foregoing report, the following resolution
was adopted:
RESOLVED, that the toll schedule contained in the resolu­
tion of the Board of Commissioners establishing tolls for the
use of Port Authority vehicular crossings, adopted on Janu­
ary 4, 2008, be and the same hereby is revised to provide
that vehicles in the classes set forth below shall be subject
to the tolls indicated for such classes, effective at 3:00 a.m.
on the dates indicated, for passage on the vehicular

a54
crossings of the Port Authority in the New York-bound di­
rection, no tolls to be collected for New Jersey-bound
passage:

r* -xr-,:

r,

Class 1 vehicles - two axles, single rear wheels: E-ZPass®
off-peak toll shall be $7.50 effective September 18, 2011;
$8.25 effective the first Sunday in December, 2012; $9.00 ef­
fective the first Sunday in December, 2013; $9.75 effective
the first Sunday in December, 2014; and $10.50 effective the
first Sunday in December, 2015; and the E-ZPass peak toll
shall be $9.50 effective September 18,2011; $10.25 effective
the first Sunday in December, 2012; $11.00 effective the first
Sunday in December, 2013; $11.75 effective the first Sunday
in December, 2014; and $12.50 effective the first Sunday in
December, 2015; and cash tolls at all times shall be $12.00
effective September 18,2011; $13.00 effective the first Sun­
day in December, 2012; $14.00 effective the first Sunday in
December, 2014; and $15.00 effective the first Sunday in De­
cember, 2015.
. Class 2 vehicles - two axles, dual rear wheels: E-ZPass® offpeak toll shall be $18.00 effective September 18,2011; $22.00
effective the first Sunday in December, 2012; $26.00 effec­
tive the first Sunday in December, 2013; $30.00 effective the
first Sunday in December, 2014; and $34.00 effective the
first Sunday in December, 2015; the E-ZPass® peak toll
shall be $20.00 effective September 18,2011; $24.00 effective
the first Sunday in December, 2012; $28.00 effective the first
Sunday in December, 2013; $32.00 effective the first Sunday
in December, 2014; and $36.00 effective the first Sunday in
December, 2015; E-ZPass® weekday overnight tolls for
trucks shall be $15.00 effective September 18, 2011; $19.00

a55
effective the first Sunday in December, 2012; $23.00 effec­
tive the first Sunday in December, 2013; $27.00 effective the
first Sunday in December, 2014; and $31.00 effective the
first Sunday in December, 2015; and cash tolls at all times
shall be $26.00 effective September 18,2011; $30.00 effective
the first Sunday in December, 2012; $34.00 effective the first
Sunday in December, 2013; $38.00 effective the first Sunday
in December, 2014; and $42.00 effective the first Sunday in
December, 2015.
Class 3 vehicles - three axles: E-ZPass® off-peak toll shall
be $27.00 effective September 18,2011; $33.00 effective the
first Sunday in December, 2012; $39.00 effective the first
Sunday in December, 2013; $45.00 effective the first Sunday
in December, 2014; and, $51.00 effective the first Sunday in
December, 2015; the E-ZPass® peak toll shall be $30.00 ef­
fective September 18,2011; $36.00 effective the first Sunday
in December, 2012; $42.00 effective the first Sunday in De­
cember, 2013; $48.00 effective the first Sunday in
December, 2014; and $54.00 effective the first Sunday in De­
cember, 2015; E-ZPass® weekday overnight tolls for trucks
shall be $22.50 effective September 18,2011; $28.50 effective
the first Sunday in December, 2012; $34.50 effective the first
Sunday in December, 2013; $40.50 effective the first Sunday
in December, 2014; and $46.50 effective the first Sunday in
December, 2015; and cash tolls at all times shall be $39.00
effective September 18,2011; $45.00 effective the first Sun­
day in December, 2012; $51.00 effective the first Sunday in
December, 2013; $57.00 effective the first Sunday in Decem­
ber, 2014; and $63.00 effective the first Sunday in
December, 2015.
Class 4 vehicles - four axles: E-ZPass® off-peak toll shall be

■ j

m c

a56
$36.00 effective September 18, 2011; $44.00 effective the
first Sunday in December, 2012; $52.00 effective the first
Sunday in December, 2013; $60.00 effective the first Sunday
in December, 2014; and $68.00 effective the first Sunday in
December, 2015; the E-ZPass® peak toll shall be $40.00 ef­
fective September 18,2011; $48.00 effective the first Sunday
in December, 2012; $56.00 effective the first Sunday in De­
cember, 2013; $64.00 effective the first Sunday in
December, 2014; and $72.00 effective the first Sunday in De­
cember, 2015; E-ZPass® weekday overnight tolls for trucks
shall be $30.00 effective September 18,2011; $38.00 effective
the first Sunday in December, 2012; $46.00 effective the first
Sunday in December, 2013; $54.00 effective the first Sunday
in December, 2014; and $62.00 effective the first Sunday in
December, 2015; and cash tolls at all times shall be $52.00
effective September 18,2011; $60.00 effective the first Sun­
day in December, 2012; $68.00 effective the first Sunday in
December, 2013; $76.00 effective the first Sunday in Decem­
ber, 2014; and $84.00 effective the first Sunday in
December, 2015.
Class 5 vehicles - five axles: E-ZPass® off-peak toll shall be
$45.00 effective September 18, 2011; $55.00 effective the
first Sunday in December, 2012; $65.00 effective the first
Sunday in December, 2013; $75.00 effective the first Sunday
in December, 2014; and $85.00 effective the first Sunday in
December, 2015; the E-ZPass® peak toll shall be $50.00 ef­
fective September 18,2011; $60.00 effective the first Sunday
in December, 2012; $70.00 effective the first Sunday in De­
cember, 2013; $80.00 effective the first Sunday in
December, 2014; and $90.00 effective the first Sunday in De­
cember, 2015; E-ZPass® weekday overnight tolls for trucks
shall be $37.50 effective September 18,2011; $47.50 effective

a57
the first Sunday in December, 2012; $57.50 effective the first
Sunday in December, 2013; $67.50 effective the first Sunday
in December, 2014; and $77.50 effective the first Sunday in
December, 2015; and cash tolls at all times shall be $65.00
effective September 18,2011; $75.00 effective the first Sun­
day in December, 2012; $85.00 effective the first Sunday in
December, 2013; $95.00 effective the first Sunday in Decem­
ber, 2014; and $105.00 effective the first Sunday in
December, 2015.
Class 6 vehicles - six axles or more, or combination of vehi­
cles totaling at least six axles: E-ZPass® off-peak toll shall
be $54.00 effective September 18, 2011 (additional axle
$9.00); $66.00 effective the first Sunday in December, 2012
(additional axle $11.00); $78.00 effective the first Sunday in
December, 2013 (additional axle $13.00); $90.00 effective the
first Sunday in December, 2014 (additional axle $15.00); and
$102.00 effective the first Sunday in December, 2015 (addi­
tional axle $17.00); the E-ZPass® peak toll shall be $60.00
effective September 18,2011 (additional axle $10.00); $72.00
effective the first Sunday in December, 2012 (additional axle
$12.00); $84.00 effective the first Sunday in December, 2013
(additional axle $14.00); $96.00 effective the first Sunday in
December, 2014 (additional axle $16.00); and $108.00 effec­
tive the first Sunday in December, 2015 (additional axle
$18.00); E-ZPass® weekday overnight tolls for trucks shall
be $45.00 effective September 18, 2011 (additional axle
$7.50); $57.00 effective the first Sunday in December, 2012
(additional axle $9.50); $69.00 effective the first Sunday in
December, 2013 (additional axle $11.50); $81.00 effective the
first Sunday in December, 2014 (additional axle $13.50); and
$93.00 effective the first Sunday in December, 2015 (addi­
tional axle $15.50); and cash tolls at all times shall be $78.00

a58
effective September 18,2011 (additional axle $13.00); $90.00
effective the first Sunday in December, 2012 (additional axle
$15.00); $102.00 effective the first Sunday in December,
2013 (additional axle $17.00); $114.00 effective the first Sun­
day in December, 2014 (additional axle $19.00); and $126.00
effective the first Sunday in December, 2015 (additional axle
$21.00).

---

Class 7 vehicles - recreational vehicles and Class 1 and 11
vehicles with trailers: E-ZPass® off-peak toll shall be $14.00
effective September 18, 2011 (additional axle $6.50); $15.50
effective the first Sunday in December, 2012 (additional axle
$7.25); $17.00 effective the first Sunday in December, 2013
(additional axle $8.00); $18.50 effective the first Sunday in
December, 2014 (additional axle $8.75); and $20.00 effective
the first Sunday in December, 2015 (additional axle $9.50);
the EZPass ® peak toll shall be $16.00 effective September
18,2011 (additional axle $6.50); $17.50 effective the first Sun­
day in December, 2012 (additional axle $7.25); $19.00
effective the first Sunday in December, 2013 (additional axle
$8.00); $20.50 effective the first Sunday in December, 2014
(additional axle $8.75); and $22.00 effective the first Sunday
in December, 2015 (additional axle $9.50); and cash tolls at
all times shall be $22.00 effective September 18,2011 (addi­
tional axle $10.00); $25.00 effective the first Sunday in
December, 2012 (additional axle $12.00); $27.00 effective the
first Sunday in December, 2013 (additional axle $13.00);
$30.00 effective the first Sunday in December, 2014 (addi­
tional axle $15.00); and $33.00 effective the first Sunday in
December, 2015 (additional axle $17.00).
Class 8 vehicles - two-axle buses and mini buses: E-ZPass®
off-peak toll shall be $10.00 effective September 18, 2011;

a59
$10.75 effective the first Sunday in December, 2012; $11.50
effective the first Sunday in December, 2013; $12.25 effec­
tive the first Sunday in December, 2014; and $13.00 effective ,
the first Sunday in December, 2015; and the E-ZPass®
peak toll shall be $10.00 effective September 18,2011; $10.75
effective the first Sunday in December, 2012; $11.50 effec­
tive the first Sunday in December, 2013; $12.25 effective the
first Sunday in December, 2014; and $13.00 effective the
first Sunday in December, 2015; and cash tolls at all times
shall be $20.00 effective September 18,2011; $21.00 effective
the first Sunday in December, 2012; $22.00 effective the first
Sunday in December, 2013; $23.00 effective the first Sunday
in December, 2014; and $24.00 effective the first Sunday in
December, 2015.
Class 9 vehicles - three-axle buses and mini buses: EZPass® off-peak toll shall be $10.00 effective September 18,
2011; $10.75 effective the first Sunday in December, 2012;
$11.50 effective the first Sunday in December, 2013; $12.25
effective the first Sunday in December, 2014; and $13.00 ef­
fective the first Sunday in December, 2015; and the EZPass® peak toll shall be $10.00 effective September 18,
2011; $10.75 effective the first Sunday in December, 2012;
$11.50 effective the first Sunday in December, 2013; $12.25
effective the first Sunday in December, 2014; and $13.00 ef­
fective the first Sunday in December, 2015; and cash tolls at
all times shall be $20.00 effective September 18,2011; $21.00
effective the first Sunday in December, 2012; $22.00 effec­
tive the first Sunday in December, 2013; $23.00 effective the
first Sunday in December, 2014; and $24.00 effective the
first Sunday in December, 2015.
Class 11 vehicles - motorcycles: E-ZPass® off-peak toll

a60
shall be $6.50 effective September 18, 2011; $7.25 effective
the first Sunday in December, 2012; $8.00 effective the first
Sunday in December, 2013; $8.75 effective the first Sunday
in December, 2014; and $9.50 effective the first Sunday in
December, 2015; and the E-ZPass® peak toll shall be $8.50
effective September 18, 2011; $9.25 effective the first Sun­
day in December, 2012; $10.00 effective the first Sunday in
December, 2013; $10.75 effective the first Sunday in Decem­
ber, 2014; and $11.50 effective the first Sunday in
December, 2015; and cash tolls at all times shall be $11.00
effective September 18,2011; $12.00 effective the first Sun­
day in December, 2012; $13.00 effective the first Sunday in
December, 2013; $14.00 effective the first Sunday in Decem­
ber, 2014; and $15.00 effective the first Sunday in
December, 2015.

fV

V

Carpool Plan - Class 1 or 11 vehicles with three or more peo­
ple: E-ZPass® off-peak toll shall be $3.50 effective
September 18,2011; $4.25 effective the first Sunday in De­
cember, 2012; $5.00 effective the first Sunday in December,
2013; $5.75 effective the first Sunday in December, 2014;
and $6.50 effective the first Sunday in December, 2015; and
the E-ZPass® peak toll shall be $3.50 effective September
18,2011; $4.25 effective the first Sunday in December, 2012;
$5.00 effective the first Sunday in December, 2013; $5.75 ef­
fective the first Sunday in December, 2014; and $6.50
effective the first Sunday in December, 2015.
GREENPass - eligible low-emission Class 1 vehicles: EZPass® off-peak toll shall be $4.00 effective September 18,
2011; $4.75 effective the first Sunday in December, 2012;
$5.50 effective the first Sunday in December, 2013; $6.25 ef­
fective the first Sunday in December, 2014; and $7.00

a61
effective the first Sunday in December, 2015; and the EZPass® peak toll shall be $9.50 effective September 18,
2011; $10.25 effective the first Sunday in December, 2012;
$11.00 effective the first Sunday in December, 2013; $11.75
effective the first Sunday in December, 2014; and $12.50 ef­
fective the first Sunday in December, 2015.
The Port Authority Staten Island Bridges Plan: The toll for
enrolled E-ZPass® users with non-commercial plates shall
be $95.00 for 20 trips in a 35-day period at the Goethals
Bridge, Outerbridge Crossing and Bayonne Bridge effec­
tive September 18,2011; $105.00 effective the first Sunday
in December, 2012; $110.00 effective the first Sunday in De­
cember, 2013; $120.00 effective the first Sunday in
December, 2014; and $125.00 effective the first Sunday in
December, 2015; and it is further
RESOLVED, that, effective September 18, 2011, “peak
hours” shall be weekdays from 6:00 a.m. to 10:00 a.m. and
4:00 p.m. to 8:00 .p.m., and Saturdays and Sundays from
11:00 a.m. to 9:00 p.m.; “off peak hours” shall be all other
times, except that “weekday overnight hours” for classes 2,
3, 4, 5 and 6 shall be from 10:00 p.m. Sundays through
Thursdays to 6:00 am. Mondays through Fridays, respec­
tively; and it is further
RESOLVED, that all the other terms and conditions set
forth in the resolution of the Board of Commissioners estab­
lishing tolls for the use of vehicular crossings, adopted on
January 4,2008 shall remain in full force and effect; and it is
further
RESOLVED, that the Executive Director be and he
hereby is authorized to evaluate, and recommend to the
Board of Commissioners, the establishment of a “Truck

a62
Repeat Volume Program”; and it is further
RESOLVED, that the Executive Director be and he
hereby is authorized to make any selection, designation, de­
termination, or estimate, to formulate and express any
opinions, to exercise any discretion or judgment, and to take
all action necessary or appropriate or which may be or is re­
quired to be made, taken, formulated, expressed, or
exercised to implement the provisions of this resolution.
CONTACT: The Port Authority of New York and New Jer­
sey
(212) 435-7777
?rr

l,
£

m.:

r~S~

The Port Authority of New York and New Jersey, which is
self-sufficient and does not receive tax dollars from either
state, operates many of the busiest and most important
transportation links in the region. They include John F.
Kennedy International, Newark Liberty International,
LaGuardia, Stewart International and Teterboro airports;
AirTrain JFK and AirTrain Newark; the George Washing­
ton Bridge and Bus Station; the Lincoln and Holland
tunnels; the three bridges between Staten Island and New
Jersey; the PATH (Port Authority Trans-Hudson) rapidtransit system; Port Newark; the Elizabeth-Port Authority
Marine Terminal; the Howland Hook Marine Terminal on
Staten Island; the Brooklyn Piers/Red Hook Container
Terminal; the Port Authority-Port Jersey Marine Terminal
and the Port Authority Bus Terminal in midtown Manhat­
tan. The agency also owns the 16-acre World Trade Center
site in Lower Manhattan.

